LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 1, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE 20-315: JOSE SANTOS SANCHEZ, ET AL. V. ALEJANDRO N. MAYORKAS,
SECRETARY OF HOMELAND SECURITY, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of Counsel for Amici Curiae Professors Alan
Morrison and Brian Wolfman, on March 1, 2021, I caused service to be made pursuant
to Rule 29 on the following counsel for the Petitioners and Respondents:
PETITIONERS:
Jaime Winthuysen Aparisi
8630 Fenton Street
Suite 925
Silver Spring, MD 20910
301-562-1416
jaime@aparisi.com

RESPONDENTS:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing three copies of the Brief of Amici Curiae
Professors Alan Morrison and Brian Wolfman in an official “first class mail” receptacle
of the United States Post Office as well as by transmitting digital copies via electronic
mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 1st day of March 2021.

